               Review of Customer Service Performance Measures 

          For Timeliness of Initial Railroad Retirement Annuity Payments 

                            Report 05-05, May 17, 2005 


                                    INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) review of the
Railroad Retirement Board’s (RRB) customer service performance measures for the
timeliness of initial railroad retirement annuity payments.

BACKGROUND

The RRB’s mission is to administer retirement/survivor and unemployment/sickness
insurance benefit programs for railroad workers and their families under the Railroad
Retirement Act and the Railroad Unemployment Insurance Act.

The Government Performance and Results Act of 1993 (GPRA) initiated program
performance reform by requiring agencies to set program goals, measure program
performance against those goals, and report publicly on their progress. In carrying out
the provisions of the Act, each agency prepares an annual performance plan covering
each program activity set forth in its budget. The plan should establish performance
indicators for measuring or assessing the relevant outputs, service levels, and
outcomes of each program activity and should describe the means used to verify and
validate measured values.

The RRB publishes performance measures, along with the annual financial statement,
as part of the Performance and Accountability Report. This report summarizes the
accomplishments of the agency in administering its benefit payment programs. The FY
2004 Performance and Accountability Report contained 49 performance measures, of
which ten were considered key indicators by the agency. The report showed
comparative data for FY 2004 and for the three preceding years. In the report, RRB
management asserted that performance and financial data were complete and reliable
in accordance with Federal guidance, and that they had identified no material
inadequacies. The report is available on the agency’s website and is compatible with
the RRB’s Customer Service Plan goals.

Applications for employee and spouse railroad retirement benefits (age and service) are
generally filed at one of the RRB's field offices, with a traveling agency representative,
or by telephone and mail. Railroad retirement benefits represent the agency’s largest
benefit payment plan. In FY 2004, the RRB made payments totaling approximately $5
billion to 352,000 employee and spouse annuitants. Nearly 16,500 new retirement
applications were processed during FY 2004, and the RRB paid approximately $149
million to these new annuitants. The agency’s performance measures and customer
service goals include the following:
   1. 	 Railroad retirement employees or spouses will receive the initial annuity payment
        or a decision within 35 days of annuity beginning date, if they filed in advance of
        the annuity beginning date (advanced filed application). For the FY 2004 report,
        the agency reported a goal that 93% of all applications would be processed in a
        timely manner with an actual performance of 94.7% through March 31, 2004.

   2. 	 Railroad retirement employees or spouses will receive an initial annuity payment
        or a notice of denial within 65 days of the date the application was filed, if they
        did not file in advance of the annuity beginning date (non-advanced filed
        application). For FY 2004, the agency reported a goal of 95% and actual
        performance of 97.8% through March 31, 2004.

Performance indicators are a means to measure progress in achieving the major goals
and objectives established in the RRB's 2003-2008 Strategic Plan, the agency’s annual
operating plans, and the agency’s Customer Service Plan. By forging a link between
resources and performance, GPRA reports show what is accomplished with the funds
expended and complete the recurring cycle of agency planning, execution, and
reporting.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this review was to determine if the RRB customer service performance
measures for timeliness of initial railroad retirement annuity payments were reliable and
accurate.

The scope of our review included the supporting data compiled for the FY 2004
Performance and Accountability Report. To achieve our objective, we:

   •	 interviewed agency officials responsible for preparing, monitoring, and reporting
      performance measures;

   •   reviewed pertinent laws, policies, and procedures;

   •	 tested, on a sample basis, the reliability and validity of time lapse data for initial
      retirement applications by reviewing source documents and agency records;

   •	 recomputed time lapse statistics compiled by agency staff for employee
      applications paid in July 2004 (a judgmentally chosen date); and

   •   assessed and tested security over the data maintained.

The details of our sampling methodology are presented in Appendix I of this report.

This audit was conducted in accordance with generally accepted government auditing
standards as applicable to the objective and scope of this review. We conducted only a
limited review of controls and did not test controls in the major agency system used to
obtain and process annuity applications. The fieldwork was conducted at the RRB
headquarters in Chicago, Illinois from December 2004 through February 2005.

                                           RESULTS OF REVIEW

Our review determined that the RRB’s performance measures for timeliness of initial
railroad retirement annuity payments are neither reliable nor accurate. In addition,
agency oversight controls are insufficient to adequately ensure that the agency monitors
the strategic and annual performance plans required by the GPRA.

Our detailed review identified several major system flaws that materially impacted the
accuracy and reliability of data:

    •	 The incorrect ending date is used to compute the timeliness of agency
       processing for substantially all applications. This flaw resulted in the
       overstatement of agency processing timeliness for 64% of the FY 2004 initial
       retirement annuity applications reviewed in our samples.

    •	 The majority of applications are incorrectly categorized by the system. For FY
       2004, this flaw resulted in an understatement of advanced filed applications and
       overstatement of non-advanced applications by approximately 63% each.

    •	 The wrong time lapse dates are used for applicants with third party payments,
       and for some advanced filed applications processed before the first annuity
       payment is due.

As a result of these deficiencies, the agency has not properly evaluated its progress in
meeting two key customer service objectives and reported inaccurate FY 2004
performance results for initial retirement applications. A recalculation of the time lapse
statistics for employee applications paid in July 2004 revealed significant differences
between reported and actual results for timeliness:

      EMPLOYEE APPLICATIONS                           Used By RRB in Compiling              Determined By
      PROCESSED – JULY 2004                           the 2004 Performance and              OIG Based On
                                                        Accountability Report                  Review
      Number of Advanced Filed
      Applications                                                  310                            652
      Advanced Filed Applications - Percent
      Processed within 30 Day Standard1                           93.23%                         63.80%
      Number of Non-Advanced Filed
      Applications                                                  446                            104
      Non-Advanced Filed Applications -
      Percent Processed within 60 Day                             98.65%                         95.19%
      Standard1


1
 In measuring the performance data, the agency allows five days for mail delivery of the application, resulting in a
30 day standard for processing advanced filed applications and 60 days for non-advanced filed applications. This
allowance makes the goals equivalent to the Performance and Accountability Report and Customer Service Plan.
The details of our findings and recommendations follow.

TIMELINESS FOR THE MAJORITY OF INITIAL PAYMENTS IS OVERSTATED

Our sample results showed that the agency’s methodology used in computing time 

lapse overstated timeliness for the majority of initial retirement annuity payments. Of 

150 sampled applications reviewed, the timeliness for 133 (89%) cases was measured 

using an ending date that differed from the voucher payment date. As a result, the 

timeliness of processing was overstated between 1 and 13 days for 96 cases (64%). 


The RRB performance goal measures the timeliness of railroad employee and spouse 

annuity payments based on the number of processing days. The RRB bases its 

calculation on the percent of applications for which the RRB processing is completed 

within the timeframe noted in the indicator, and includes five days for mail delivery. 


After an application is received from the employee or spouse, the agency determines 

eligibility and makes an award decision. Subsequent to the award decision, the RRB 

processes the award for payment and submits the payment information to the U.S. 

Department of Treasury in a process called vouchering, or denies the benefit. The RRB 

also prepares an award letter or notice of denial for mailing to the applicant. 


The agency’s Key Operating Report (KOR) system is used to track the timeliness data. 

The agency measures timeliness from the date the application is filed or the annuity 

beginning date, to an award decision date – not the date the agency vouchered the 

award for payment. The GPRA performance measures and Customer Service Plan 

goals include the award payment date in their methodology. 


RRB officials stated that, when the Customer Service Plan was established, agency 

resources were not readily available to establish new programs for tracking this data. 

Therefore, they decided to use existing data whenever possible for this reporting. 

A decision was made to use the award decision date for cases processed mechanically 

because this date was available on the existing KOR system. 


Because the agency is not using the voucher payment date, time lapse statistics used 

for preparing the Performance and Accountability Report are inaccurate and the 

timeliness of initial retirement payments is overstated. The agency also is not able to 

accurately assess its performance in meeting goals established in the Customer Service 

Plan. 


Recommendation


The OIG recommends that the Office of Programs:

   1. 	 Develop and fully implement system changes in KOR, or a new tracking system,
        to accurately capture the voucher payment or letter date as the ending date for
        the time lapse statistic.
Management’s Response

The Office of Programs concurs with the recommendation. By early 2006, the present
system that captures the processing date will be replaced by the system that obtains
and processes annuity applications (the APPLE system). The new system will pass the
voucher payment date to the KOR system. In the interim, the Office of Programs will
appropriately annotate reports to indicate that the current measure does not cover all
internal processing time.

A complete copy of management’s response is included as Appendix II to this report.


ERRORS IN CATEGORIZING APPLICATIONS UNDERMINE DATA RELIABILITY

The agency has significantly understated the number of advanced filed applications and
overstated non-advanced filed applications in the 2004 Performance and Accountability
report statistics. Based on a review of a statistical random sample of 100 non-advanced
filed applications in FY 2004, we estimate that approximately 65 percent should be
classified as advanced filed applications. In addition, 1 of the 50 randomly selected
advanced filed cases was incorrectly categorized as a non-advanced filed case.

The RRB performance goals for advanced and non-advanced filed applications
correspond to the agency’s Customer Service Plan standard which promises the RRB
applicant that:

       “If you filed for a railroad retirement employee or spouse annuity in
       advance, you will receive your first payment, or a decision, within 35 days
       of the beginning date of your annuity. If you have not filed in advance,
       you will receive your first payment, or a decision, within 65 days of the
       date you filed your application.”

Applications for railroad retirement or survivor benefits are generally filed at one of the
RRB’s field offices, with a traveling RRB representative, or by telephone and mail. The
agency accepts applications up to three months in advance of an annuity beginning
date. The KOR system categorizes, by type, the majority of applications. For
applications that have been cancelled or denied, the Office of Programs manually
researches RRB systems to determine the correct classification. Correct categorization
of the application is important because there are different timeliness standards and time
lapse measurements for each application type.

RRB officials advised that, when the Customer Service Plan was established, there was
no available data showing separate statistics for advanced filed applications and non-
advanced filed applications. Therefore, they prepared a simple program to split the
existing KOR file into these two categories.
Because application types have not been properly tracked, the performance measure
statistics are unreliable and the GPRA report has inaccurate performance results on the
timeliness of agency processing for initial railroad retirement applications.

Recommendation

The OIG recommends that the Office of Programs:

   2. 	 Develop and fully implement KOR system changes, or a new tracking system,
        that will properly categorize all railroad retirement applications for compiling the
        timeliness measures.

Management’s Response

The Office of Programs agrees with the recommendation. The office completed KOR
system changes to correct the problem, beginning with reports for March 2005. The
office also manually corrected the categorization for the October 2004 through February
2005 reports.

The complete management’s response appears in Appendix II.


KOR TRACKING SYSTEM CAPTURES THE WRONG TIME LAPSE DATA

The KOR system captures the wrong time lapse dates for annuitants with third party
payments and for year-end advanced filed applications processed before the first
annuity payment.

The RRB measures the timeliness of the retirement application process by comparing
the annuity beginning date to the payment date for advanced filed applications, or the
application filing date to the payment date for non-advanced filed applications.
Employee applicants may become subject to withholding of their annuity for a third party
payment, such as a garnishment by court order to enforce an obligation for child support
or alimony.

The KOR system compiled the time lapse data using the earlier date of the third party
payment, rather than the first annuity payment date for two advanced filed spouse
applications. The inability to capture the correct payment processing date was due to
the third party payments being incorrectly coded as initial awards by the agency’s
payment system.

In addition, KOR computed the wrong starting date for eight advanced filed applications
processed in December 2003. KOR incorrectly used December 1, 2003, rather than the
January 1, 2004 annuity beginning date, as the starting time lapse date for these eight
applications. KOR calculated the incorrect date due to a Julian date logic flaw in the
KOR system’s programming when crossing over to a new calendar year.
Using the incorrect payment date leads to inaccurate time lapse statistics and incorrect
results in the Performance and Accountability Report.

Recommendations

The OIG recommends that the Office of Programs develop and fully implement system
changes in either KOR, or a new tracking system, to capture the correct time lapse data
for:

   3. Employee applications with third party payments; and

   4. 	 Year-end advanced filed applications processed before the annuity beginning
        date.

Management’s Response

The Office of Programs concurs with the third recommendation. By early 2006, the
present system that captures the processing date will be replaced by the system that
obtains and processes annuity applications (the APPLE system). APPLE will pass
proper payment date for employee applications with third party payments to the KOR
system.

The Office of Programs also agrees with the fourth recommendation and will modify the
KOR system to correct the calculation error before the December 2005 reports are
produced. The office also manually reviewed the records processed in December 2004
and January 2005, and manually corrected the performance reports for those two
months.

The full text of management’s response is in Appendix II of this report.


INADEQUATE AGENCY OVERSIGHT RELATED TO THE PERFORMANCE AND
ACCOUNTABILITY PROCESS

Agency oversight related to the performance and accountability process is insufficient to
ensure that the agency complies with GPRA and that the report data for timeliness of
initial retirement applications is accurate and reliable.

GPRA was intended to instill greater organizational and managerial accountability for
proper agency mission execution and program results. Monthly reports are made
available for review by Office of Programs officials and management who use the data
to monitor and assess agency’s performance in meeting customer service goals. In
addition, the agency has established the Strategic and Annual Performance Plans
(SAPP) Committee. The Committee’s stated purpose is to “prepare, monitor, and report
on strategic and annual performance plans required by the Government Performance
and Results Act of 1993 and any subsequent guidance.” The Committee includes
representatives from the Office of General Counsel, the Office of Programs, the Bureau
of Information Services, the Office of Administration, and the Bureau of Fiscal
Operations. The Committee works with, and under the general guidance of, the
Executive Committee in fulfilling its role.

The OIG requested documentation of the SAPP Committee’s monitoring oversight of
the process, but was advised that the committee usually conducted business through
emails and no formal minutes were maintained. Committee members also stated that
there had not been any meetings in the past year concerning the GPRA and no central
file of the past email messages or committee documents was available. In addition, no
person has been designated as chair of the SAPP Committee.

More effective oversight could have induced RRB officials to resolve the KOR
deficiencies and ensured accurate, reliable performance data. Without active
monitoring responsibilities, the agency can not successfully ensure the reliability,
accuracy, and validity of data used for the annual Performance and Accountability
Report and Customer Service Plan. Beginning with FY 2006, the OIG will be required
to audit performance measures as part of its annual financial statement review and will
express an opinion on their fair and accurate presentation.

Recommendations:

The OIG recommends that the Executive Committee of the RRB:

   5. 	 Clarify oversight responsibilities for ensuring the reliability, accuracy, and validity
        of the performance data included in the Performance and Accountability Report.

   6. 	 Evaluate the agency’s ability to issue reliable and accurate reports on timeliness
        of initial railroad retirement applications, given the deficiencies noted in this audit
        report and planned agency corrective actions.

   7. 	 Determine the necessity for restatement of prior years’ information in subsequent
        Performance and Accountability Reports, including comparative performance
        data.

   8. 	 Assign a chair of the Strategic and Annual Performance Plans Committee as
        soon as possible. The chair should ensure that committee activity is
        documented.

Management’s Response

The Chief Financial Officer, with the concurrence of the Executive Committee, has
agreed with all findings. Effective with the preparation of the FY 2005 Performance and
Accountability Report, all performance data will be routed from the responsible
managers, who will attest in writing to its reliability, accuracy, and validity, to the
knowledgeable Executive Committee member, who will also review the information.
The information will then be sent to the Strategic and Annual Performance Plans
committee for inclusion in the annual report.

The Director of Programs will advise the Executive Committee as to when the Office of
Programs will be able to issue reliable and accurate performance reports on the
timeliness of processing initial railroad retirement applications. The Executive
Committee will evaluate the data provided by the Director of Programs for future
Performance and Accountability Reports. It is expected that report data on this
performance measure will need to be annotated for the next several years until the
Office of Programs has fully implemented system changes.

The Executive Committee has determined that prior years’ data will be footnoted rather
than restated in subsequent Performance and Accountability Reports.

The Executive Committee will also propose an update to the agency’s Administrative
Circular that established the authority of the Strategic and Annual Performance Plans
Committee, by June 15, 2005. The update will include the designation of a chair for the
committee. The chair will determine the extent to which committee activity needs to be
documented.

The full text of management’s response is included as Appendix III to this report.
                                                                                                    Appendix I

                                Sampling Methodology and Results


We used random sampling to evaluate the reliability and accuracy of the fiscal year
2004 time lapse data for initial retirement payments.

Evaluation Objective and Scope

The objective of our testing was to determine if the RRB customer service performance
measures for timeliness of advanced and non-advanced filed initial retirement payments
were reliable and accurate.

Methodology

We selected a statistical random sample of 50 applications2 from a FY 2004 population
of 8,226 advanced filed applications and 100 applications from a population of 8,133
non-advanced filed applications compiled by the agency’s Key Operating Report (KOR)
system. For each case, we obtained the application, award form, and award or denial
letter maintained in the document imaging system, and historical data on the annuitant
maintained in the Payment Rate Entitlement History and Taxation databases. We
compared dates recorded in KOR for the application filing; annuity beginning date; and
payment, denial, or cancellation date with the source documents. We also evaluated
whether KOR had correctly classified the application.

Results of Evaluation

Our evaluation identified material discrepancies between KOR system and source
document dates, as well as errors in how KOR classified many cases.

    •	 KOR was systematically using a different ending date to compute the timeliness
       of agency processing for substantially all applications.3 KOR used the date the
       agency made a decision, instead of the date of processing the award for
       payment or the date of the award/denial letter. KOR used the wrong ending date
       for 133 (89%) of the 150 sampled applications reviewed. Timeliness of payment
       was overstated between 1 and 13 days for 96 cases (64%).

    •	 KOR incorrectly categorized the majority of applications. Sixty-five of the 100
       applications classified as non-advanced were filed before the annuity beginning
       date and should have been defined as advanced filed. Based on 95%

2
 Once it was determined that the KOR system improperly classified many advanced filed applications in the non-
advanced category, we decided not to expand sampling for the KOR advanced filed applications.
3
 We are unable to provide a precise estimate of the error rate with any confidence because of the additional KOR
system error with classifying advanced and non-advanced populations.
       confidence, between 55% and 74% of non-advanced filed applications were
       incorrectly tracked in FY 2004. In addition, 1 of the 50 randomly selected
       advanced filed applications was incorrectly categorized as a non-advanced filed
       application.

   •	 KOR captured the wrong ending date for two advanced filed spouse cases in
      which applicants were subject to a withholding of the annuity for a third party
      payment. KOR incorrectly used the date of the third party payment rather than
      the first annuity payment date for these spouse applications.

   •	 KOR captured the wrong starting date for eight advanced filed applications
      processed in December 2003. KOR incorrectly used December 1, 2003, rather
      than the January 1, 2004 annuity beginning date, as the starting time lapse date
      for these eight applications.

Conclusion

Based on these results, we believe that the RRB customer service performance
measures for timeliness of initial railroad retirement payments are neither reliable nor
accurate.
